       FLRA INSPECTOR GENERAL INTERNAL REVIEW OF FLRA COURT
                       REPORTING PROCUREMENT


I.   REFERENCES

Federal Acquisition Regulation 16.500 -Indefinite-Delivery
Contracts; Federal Acquisition Regulation 16.201 - Fixed-Price
Contracts;

FederalFederal AcquisitionFederal Acquisition Regulation 13.303,Federal Acqui

Federal Acquisition Regulation 19.501, Set-Asides for Small
Businesses;

U.S.U.S. Department of Labor BurU.S. Department of Labor Bureau ofU.S. De
Outlook Handbook; Court Reporters and

FLRA Instruction 4410.1B, Procurement Policy and Procedures

II. METHODOLOGY

ThisThis interThis internal rThis internal review of FLRA procurement of
transcriptiontranscription services was conducted pursuant to govertr
auditingauditing standards. Interviews were conducted with the General
Counsel, DeputyCounsel, Deputy Counsels, OfficeCounsel, Deputy Counsels, Of
DiDirectors,Directors, Regional Office Managers, Chief, Administrative L
Judge, and the Solicitor.

III. BACKGROUND

As part of FLRA=s statutory mission, the Office of the General
CoCouCounsel,Counsel, Office of Administrative Law Judges, the Authori
FederalFederal Services Impasse Panel, and the Office ofFederal Services Impa
involvedinvolved in court litigation, which involved in court litigat
services.services. Since its inception, the FLRA has outsservices. Si
servicesservices required by the Headquarters and Regionalservices require
has never used its own employees for this requirement.

IV. FACTS

BasedBased upon the availabilityBased upon the availability of FY 2001 funds,
forfor Proposal(RFP), which included a detailedfor Proposal(RFP), which incl
courtcourt reporting and transcription services.court reporting and transcri
page rates and otherpage rates and other allowable firmpage rates and other
opportunityopportunity was set aside for small busiopportunity was set
contractcontract providedcontract provided FLRAcontract provided FLRA the uni
continued performance in FY-2002 and FY-2003.
TheThe Inspector General reviewThe Inspector General review of this FY 2001Th
thatthat it setthat it set forth the requirements forthat it set forth the re
and transcription service with adequate specificity and detail.

The statement of work pertained to both court reporting and
transcriptiontranscription services. It setranscription services. It set
contractor for on-site cancellation, late cancellation, and
additionaladditional services. The statemeadditional services. The state
requiredrequired formatrequired format for transcripts and exhibits, authori
ofof duplicate transcriptof duplicate transcripts,of duplicate transc
requirements,requirements,   stipulated   paymrequirements,   stipulated   p
confidentiality standards.

InIn response to the solicitation, and based upon stIn response to th
criteria,criteria, contracts werecriteria, contracts were awarded to four off
reportingreporting and transcriptions services. The following selectirepor
were based, in part, on geographical time zones:

ÿÿ   NEAL R. GROSS & CO. INC. (Washington, DC).
     Washington Regional Office
     Boston Regional Office

ÿÿ   JACKSON & ASSOCIATES (Santa Rosa, CA).
     Denver Regional Office

ÿÿ   ON THE RECORD REPORTING (Austin, TX)
     Atlanta Regional Office
     Dallas Regional Office
     Chicago Regional Office

ÿÿ   VARS (Sacramento, CA)
     San Francisco Regional Office

TowardToward the end of 2003, the FLRAToward the end of 2003, the FLRA Contrac
courtcourt reportingcourt reporting contract forcourt reporting contract for
managementmanagement that the current contract would expmanagement that t
2003.2003. 2003. FLRA management did not approve the contract by the end200
thethe year and,the year and, instead, extended the existing 2003 contract f
daysdays (expiration on Marchdays (expiration on March 30,days (expirat
continued to provide services.




                       2
TheThe Inspector GeneralThe Inspector General review ofThe Inspector General
Statement ofStatement of Work identifiedStatement of Work identified a few
addressedaddressed by the FLRA 2004 Statement of Work submittedaddressed
management for approval. These include:

ContractContract Administration (should address (should address what happens
inaccurateinaccurate preparation of transcinaccurate preparation of tr
reporter to show up or show up late for a hearing.)

MethodMethod and RequiremeMethod and RequirementMethod and Requirements f
reductionsreductions if contrreductions if contracreductions if contr
improperly prepare transcripts, and cancellation of cases etc.).

CourtCourt Reporting Certification & Requirements The previous FLRA
2001-20032001-2003 Master Requirement2001-2003 Master Requirement Contract f
alsoalso addressed liquidated damage charges againstalso addressed liquidated
latelate transcripts, failure oflate transcripts, failure of the reporter to
come at all, andcome at all, and the methodscome at all, and the methods of
ItIt also addressed confidentialityIt also addressed confidentiality of info
forfor travel, lodgingfor travel, lodging and meal costsfor travel, lodging a
4848 con48 conti48 contiguous states of the U.S.) The FLRA allocated $50,
perper year to each of the four contractors selectedper year to each of th
 2003 contract. The actual expenses for court reporting 2003 contract. The
than the total yearly allocation of $2000.00.

At the end of FY 2003, the tree option year court reporting
contractcontract with Neal Gross & Company, OTR, Incorcontract with Ne
IncorporatedIncorporated and JackIncorporated and Jackson & AIncorporate
OfficerOfficer created a draft statement of worOfficer created a draft sta
thatthat the GSA Multiple Award ScheduleAward Schedule was the most viable so
thethe contract. Although aAlthough a new statement of work wasAlthough a new
thethe end ofthe end of the contract, FLRAthe end of the contract, FLRA manag
9090 days which would expire on March 31,2004. At90 days which would expire
dayday extension, FLRA management decided to useday extension, FLRA managemen
ScheduleSchedule for contracting the court reporting services, bSchedule f
waswas insufficient time left to uswas insufficient time left to use
process.process. Since several FLRA hearings requiring court reporproces
servicesservices were scheduled for early April. services were scheduled
decideddecided to issue blanket purchase agdecided to issue blanket
remainingremaining monthsremaining months of FY 2004. FLRA used the previousr
contractors,contractors, Neal Groscontractors, Neal Gross & contractors,
RegRegionalRegional ORegional Offices, OTR, Incorporated for the Atlanta,




                       3
ChicagoChicago RegionalChicago Regional OfficesChicago Regional Offices and Ja
the Denver and San Francisco Regional Offices.


V. Costs

BasedBased upon maximumBased upon maximum workloadBased upon maximum workloa
$200,000$200,000 per year for court$200,000 per year for court reporting durin
the expenditure for actual requirements was substantially less.

                     Expended                 Budget

FY 2000             $31,981.65               $45,798.35
---------------------------------------------------
FY 2001             $88,633.68               $109,386.95
---------------------------------------------------
FY 2002             $88,682.23               $106,337.50
---------------------------------------------------
FY 2003             $96,144.94               $125,000.00
---------------------------------------------------
*OGC                $46,691.62               $75,000.00
*FSIP               $565.80                  $565.80
*ALJ & AUTH         $0.00                    $0.00

FY 2004             $75,997.93                $75,565.80
(September 30,2004)

TheThe total amount The total amount sThe total amount spent durin
$37,581.15.$37,581.15. The amount spen$37,581.15.    The amount spent duri
$38,416.78$38,416.78 even though $85,000.00 was allocated for rem$38,416.78
the fiscal year.

DuringDuring FY 2004, the FLRA Regional Offices required the fDuring FY 200
amount of court reporting.

Atlanta Regional Office                  7 times
Boston Regional Office                   6 times
Chicago Regional Office                  6 times
Dallas Regional Office                   4 times
Denver Regional Office                   8 times
San Francisco Regional Office       4 times
Washington Regional Office               10 times
FSIP                                     11 time           1 time            1



                       4
VI. Procurement Options

GSA Multiple Award Schedule
FY-2004
This investigation affirmed that in early March 2004, the
ContractingContracting Officer recoContracting Officer recommContracting
multiple-awardmultiple-award contract pursuantmultiple-award contract pursua
ScheduleSchedule (SoliSchedule (SolicSchedule (Solicitation Number.7FCM-N6
contractcontract wouldcontract would have pcontract would have provided
transcriptiontranscription services fortranscription services for thetransc
implementedimplemented cancellation fees and additioimplemented cancellati
aapproapprovedapproved overtime and weekend work. By the time FLRA manage
acceptedaccepted the FLRAaccepted the FLRA Contracting Officer=ss recommenda
lead-timelead-time to satisfy competitionlead-time to satisfy competition had
alternativealternative was necessary to ensurealternative was necessary to e
first part of April 2004 would have court reporters.

Blanket Purchase Agreement
FY-2004

OnOn April 2, 2004, FLRA Director of AdministrOn April 2, 2004, FL
Division,Division, directed thDivision, directed the FDivision, directe
BlanketBlanket Purchase Agreement (BPA) forBlanket Purchase Agreement (BPA)
remaining six months of FY-2004.

TheThe BThe BPA authorized FLRA Regional Office managers to place ordThe B
withwith thewith the vendors listed on that document: however, because Offi
ManagersManagers procurement authority is limManagers procurement authori
purchasingpurchasing threshold, any order exceedingpurchasing threshold, any
bebe submittedbe submitted to the Director, Administrative Servicesbe submit
forwardedforwarded it to the FLRA Contractforwarded it to the FLRA Contra
ThisThis processThis process was later modified to allow Regional OfficesThis
aa form to thea form to the Office of the General Counsel who thena form to
throughthrough the Administrative Services Division. through the Administrati
werewere required towere required to maintain monthlywere required to maintai
whichwhich were submitted to the Director, Administrativwhich were subm
Division.

TheThe BPAs set forth thThe BPAs set forth the FLThe BPAs set
requirementsrequirements in a fashion similar torequirements in a fashion sim
inin the previousin the previous coin the previous court reporting c
specifications for transcripts, exhibits, fees, and timeliness.


                       5
However,However, BPAs do not citeHowever, BPAs do not cite appropHowever
16.702(c)).

TheThe BPAs wereThe BPAs were merelyThe BPAs were merely written instruments
FLRAFLRA and the vendors, whichFLRA and the vendors, which contemplated the
serviceservice or product, if the vendor acceptservice or product, if the
purchase order is not a contract FAR 16.702(a)).

BPAsBPAs are not contracts but BPAs are not contracts but areBPAs are n
enforceable.enforceable. Each time a courtenforceable. Each time a court r
hashas to send outhas to send out the order and the companieshas to send out th
SinceSince BPAs Since BPAs areSince BPAs are not contracts, the compan
responsibleresponsible for performing all of the stated duresponsible
agreementagreement of be held responsible for not showing up to the hearing
onon time. BPAs do not prevent the companieson time. BPAs do not prevent
havehave thehave the obligation to standardizehave the obligation to standardi
to court reporting services list general specifications.

TheThe use of BPAs for court reporting by FLRA Regional Offices began
inin April,2004. Although thein April,2004. Although the FLRA Officein April,2
DirectorsDirectors statedDirectors stated thatDirectors stated that initiall
toto obtain service under the BPAto obtain service under the BPA,
significantsignificant problems other than onesignificant problems other than
AtlantaAtlanta Regional Office. This occurred while theAtlanta Regional Offi
OfficerOfficer was on leave and Officer was on leave and did not reOfficer
OfficeOffice requestOffice request for court reporting services onOffice requ
appearedappeared that the blanketappeared that the blanket purchase process w
it required much more paperwork than the previous contracts.

BPAsBPAs can onBPAs can only BPAs can only be processed by the FLRA Cont
PurchasePurchase Agent if theyPurchase Agent if they exceed $2,500.00. Purcha
usedused have $10,000.00 onused have $10,000.00 on each requisition to commi
courtcourt reporting services. If a dispute issue arises usincourt reportin
therethere isthere is no enforceable agreement. While contracts require
contractorcontractor to accept relatedcontractor to accept related taskcontr
toto accept BPAs and can even increase their rates for eacto accept BPA
Regional Office BPA submission for court reporting services.

TheThe FLRA Office of General Counsel management anGeneral Counsel managem
strongstrong preference for reinstating a formal contracstrong preferenc
reportingreporting and transcription servicesreporting and transcription s
monitoredmonitored better, service ismonitored better, service is more respo
controlled.



                       6
The FLRA Contracting Officer and Purchase Agent stated that
FLRA== ss reliances reliance on BPAs yields too much independence to vendors wh
areare not obligatedare not obligated toare not obligated to accept in
enforceable contract, which provides specific duties for
timeliness,timeliness, BPAs Astart fromstart from scratch@ each time a vendo
uponupon to accept or rejectupon to accept or reject an assignment. Initiall
daysdays weredays were days were involved in the processing of BPAs because
ordersorders had to be approved before the purcorders had to be appro
processed.processed. Asprocessed. As previously stated, an appropriateproces
thethe BPA process so that the form had to be the BPA process so that the
OfficeOffice of the General Counsel as well as the Office of the Ge
Services Division.

CurCurrently,Currently, Currently, the FLRA Office of General Counsel
AdAdministrativeAdministrative Law Judges are the FLRA components thA
regularlyregularly using court reporterregularly using court reporters.
OfficeOffice of the Solicitor only use them oOffice of the Solicitor only u
thethe FLRAthe FLRA Authority is involved in a circuit court issue, reportin
servicesservices are provided by the court and theservices are provided by t
doesdoes not have the responsibilitydoes not have the responsibility todoes n
IfIf the SolicIf the SoliciIf the Solicitor gets involved in depositions an
aa court reporter, he does so through the Adminia court reporter, he does
Division.

VII. In-House Alternative

BecauseBecause court reportingBecause court reporting and trBecause cour
Ainherently governmentalinherently governmental function@, there is, there i
FederalFederal agency deploy its own employeesFederal agency deploy its own e
President=ss Mans Management Agenda states a preference for outsourcing
such commercial activities.

InIn August 2004, FLRA InspectorIn August 2004, FLRA Inspector GeneralIn Augu
ReportingReporting Association (NCRA) to evaluateReporting Association (NCRA
ofof training incumbent employees to of training incumbent employees t
overalloverall court reporting and transcription funcoverall court rep
variousvarious NCRA programs are approvedvarious NCRA programs are approved
forfor court reporters. The prices range from $8,000 to $20,000 per
traineetrainee.trainee. trainee. The entire training process requires ap
months.




                        7
BasBasedBased upon preliminary budget estimates it was obvious that
trainingtraining eight regional employees and two headtraining eight regio
was not a feasible alternative to outsourcing court reporting,
andand is not a cost productive and is not a cost productive op
prohibitiveprohibitive prohibitive dirprohibitive direct labor costs, it
divertdivert these employees frodivert these employees from divert these
regular duties.

Discussions with FLRA paralegal and legal technicians revealed
thatthat mthat mothat most would be interested in training to assume such
theythey would only do so if they would only do so if their gradthey woul
FLRAFLRA Regional Office Directors stated that performinFLRA Regional Offic
in-housein-house would cause the appearin-house would cause the appearani
shiftshift shift tooshift too much additional work to other administrative e
andand unacceptably increase traveland unacceptably increase travel costsand u
RegionalRegional OffRegional OfficeRegional Office locations. Most of
managersmanagers were not interested in pursuing the new dumanagers were n
reporting.

AA questionnaire sent to theA questionnaire sent to the Regional Office Mange
revealedrevealed that the mrevealed that the marevealed that the majority
currentcurrent BPcurrent BPAcurrent BPA method because it required much mor
currentcurrent BPA Regional Office method for obtaining courcurrent BPA Re
servicesservices requires the FLRA Regional services requires the FLRA Regi
authorizationauthorization form which requires the Regionalauthorization form
subsubmitsubmit the form to the FLRA Office of General Counsel asubmit the
AdministrativeAdministrative Services Administrative Services DiviAdmin
$2,500.00 or more and submit additional paperwork to the vendor.

VIII CURRENT ACTION

OnOn September 27, 2004, the FLRA InspectorOn September 27, 2004, the FLRA Ins
FLRA management had made an interagency agreement with the
DepartmentDepartment of Treasury FedSource to contrDepartment of Treas
servicesservices for the FLRA. Management planned for thisservices for the FL
onon October 1, 200l after the Blankeon October 1, 200l after the Blanketon
SeptemberSeptember 30, 2004. However, theSeptember 30, 2004. However,
DepartmentDepartment of Treasury FedSourcDepartment of Treasury FedSourceD
FLRAFLRA because of the high priceFLRA because of the high price submittedFLRA
DepositionDeposition Service. Deposition Service. Deposition Service.     FLR
aa contract not more than $100,000.00. FLRA management hasa contract not more
thethe use of the BPA until December 31, 2004 because anthe use of the BPA
contractcontract had not been provided. contract had not been provided. Th



                       8
costcost negotiatiocost negotiation bcost negotiation between the Departmen
thethe Esquire Deposthe Esquire Deposithe Esquire Deposition Service contr
thatthat if the contract price can not bethat if the contract price can not be
level,level, they would continue usinglevel, they would continue using thelev
these services through GSA.

VIII. CONCLUSION

ÿÿ   Mission Requirement

CourtCourt repoCourt reportinCourt reporting and transcription services are
orientedoriented servicesoriented services, whichoriented services, whic
AdministAdministrativeAdministrative LAdministrative Law Judges and the Of
CourtCourt Court reCourt reporting services are on occasion, required by th
ServicesServices Impasse Panel, the Authority,Services Impasse Panel, t
SSolicitor.Solicitor. Because this requirement is essential and cannSoli
conductedconducted byconducted by conducted by FLRA employees, it is i
contract out for these services.

ÿÿ   In-House

Although most FLRA paralegal or legal assistants considered
courtcourt reporticourt reporting court reporting training would be use
traveltravel requirements,travel requirements, andtravel requirements, and t
courtcourt reporter are negativecourt reporter are negative recourt
considerationconsideration of thiconsideration of thisconsideration o
time/coststime/costs supports the contracting of these services fortime/costs
WhileWhile court reporting and transcription services aWhile court repo
agencyagency services, such commercial agency services, such commercial
governmental function, and should be properly outsourced.


ÿÿ   Outsourcing: Blanket Purchase Agreement

TheThe use of The use of BThe use of BPAs instead of contracts for c
transcriptiontranscription services was a viable alternative at thetranscrip
20042004 and is curr2004 and is current2004 and is currently necessary
throughthrough the Department of the Trthrough the Department of the
becausebecause of its extebecause of its extenbecause of its extensive
providedprovided an essential service while FLRA managementprovided an essent
implementimplement a more permanent solution. FLRA management=s decision to
contractcontract out for court reporting servicescontract out for court repor



                       9
TreasuryTreasury FedSourceTreasury FedSource has resulted in taking moreTrea
costing more money than feasible.

WhilWhileWhile the BPWhile the BPA system has worked satisfactorily for th
processprocess is not in the best interest for theprocess is not in th
governmentgovernment for servicesgovernment for services (better for materia
doesdoes not promote competition; it creadoes not promote competition; it c
cancan cause risks such ascan cause risks such as untimely deliverycan cause r
anan increases in costs. An an increases in costs. An increase ian incr
services actually occurred by the Neal Gross, Inc. contractor.

ÿÿ   Outsourcing:   FedSource

Federal Acquisition Regulation 16.500-Indefinite-Delivery
Contracts; Federal Acquisition Regulation 16.201- Fixed-Price
Contracts;Contracts; and FederalContracts; and Federal Acquisition RegulationC
SmallSmall Businesses prescribeSmall Businesses prescribe authority andSmall
FLRA=ss requirements requirement s requirement for court reporting and trans
PriorPrior to the release of this report, FLRA manPrior to the release of t
thethe the procthe procedure for outsourcing court reporting and transcr
services.services. services. In orderservices. In order to eliminate the use
procurementprocurement (recommended procurement (recommended byprocureme
ServicesServices DServices DivisioServices Division), and contract for t
executedexecuted anexecuted an inter-agency agreement with the FedSource, an
thethe Department of Treasury. The Depthe Department of Treasury. The Dep
willwill perform all contract will perform all contract adminiwill per
possibpossiblepossible to evaluate cost benefits of this process at this
since the contract is currently under negotiation for costs.

TheThe Department of Treasury=ss FedSource doess FedSource does have a proven
reliablereliable inter-agency support and outsreliable inter-agency suppor
andand transcriptionand transcription servicand transcription services. Suc
thethe initialthe initial recommendation contemplated bythe initial recommend
eliminateeliminate the use of BPAseliminate the use of BPAs and contract out
waswas was not an inappropriate decision for management to enter into an
agreementagreement with aagreement with anotheagreement with another Fede
proprocessingprocessing the contract with GSA within house through GSA wop
havehave probably involved much less time and mohave probably invo
submissions.submissions. The task order initially subsubmissions. The task
ofof Treasury FedSource wasof Treasury FedSource was the statement of workof
byby the FLRA Contractby the FLRA Contracting Oby the FLRA Contracting Off
OfficeOffice of General Counsel foOffice of General Counsel forOffice of
NorNor was this statement of work provided toNor was this statement of wor



                        10
CounselCounsel before it was submitted to the DepartmCounsel before it
FedSource on September 9, 2004.

Since the Office of General Counsel was not included in the
creationcreation of the statementcreation of the statement ofcreation of the
usefuluseful input from the primaryuseful input from the primary userusef
SuchSuch initial input could have improved tSuch initial input could have
beforebefore it was released to tbefore it was released to thebefore it
contracontractor,contractor, the Esquire Deposition Service.      Esquire Dep
ServiceService would notService would not submitService would not submit its
questionsquestions werequestions were addressed. Thequestions were addressed
thethe Department of Treasury FedSource, withthe Department of Treasury FedS
needneed of more explicit need of more explicit inforneed of more explic
reportingreporting services before theyreporting services before they could
and the cost for providing court reporting services.

TheThe DepartmentThe Department of Treasury FedSource contacted the FLRA Dire
AdministrativeAdministrative Services DivisAdministrative Services Divi
information.information. The FLRA Director, Administratiinformation. The F
directeddirected the FLRAdirected the FLRA Contractingdirected the FLRA Cont
thethe FLRA was contracting out the FLRA=s court reporting services
throughthrough the Department of Treasury FedSource)through the Department of
thethe FedSource=s contractor=ss questions. The FLRA Contractings questions. T
statedstated hstated he stated he could not provide this information withou
thethe FLRA=ss Office ofs Office of General Counsel and the FLRA Regional Of
which he did.

On September 28,2004, the FLRA Contracting Officer e-mailed the
FLRAFLRA Office of the General Counsel requesting tFLRA Office of
information.information. This information was provided toinformation. This
OfficerOfficer and then to the FLRA Director, AdmiOfficer and then to t
DivisionDivision on and forwarded toDivision on and forwarded to the Departm
TheThe Department of TreasuryThe Department of Treasury FedSource contractor,
ServiceService issued their proposService issued their proposaService issue
becausebecause its costs were excessive.because its costs were excessive. Th
negotiatednegotiated by the Department of Treasury FedSource because onegot
costs.

ThisThis investigation revealed that the FLRA anticipated thThis investig
reportingreporting services requirementreporting services requirement to be u
statesstates that acquisitions not exceeding $100,000.00 shstates that acq
asideaside for small business concerns.    FAR 19.502 (b) provides that



                       11
acquisitionsacquisitions exceeding $10acquisitions exceeding $100.0acquisi
businessbusiness concerns whenbusiness concerns whenevebusiness concerns wh
twotwo or more small business concerns ctwo or more small business
acquisitionsacquisitions practice or hiacquisitions practice or history
determiningdetermining the determining the likdetermining the likelihood
FedSourceFedSource awards this FLRA statement FedSource awards this FLRA s
(Esquire(Esquire Deposition Service is considered a lar(Esquire Depos
concern),concern), concern), the FLRA will be vulnerable to having its form
businessbusiness contractors whbusiness contractors who abusiness contr
services (through BPAs) file claims against the FLRA.

TheThe FedSource contractor, Esquire DeposThe FedSource contractor, Esqui
smallsmall business contractosmall business contractor asmall business cont
isis important foris important for FLRAis important for FLRA management to und
bebe used by the FLRA forbe used by the FLRA former cbe used by the FLRA
(wh(who(who were all small business contractors) as a basis for a bi(who
protest against the award.

IX.   FINDINGS AND RECOMMENDATIONS

FFindingFinding 1Finding 1:     In spite of management training          in cont
sseservices,services, FLRA management has not been properly              executin
contracting services to minimize time, costs and problems.

RecommendationRecommendation 1:    FLRA should improve its cRecommendation 1
forfor bothfor both internal and external contracting and should involve input
from managers who will be affected by the outsourced actions.

FindingFinding 2:   WhileFinding 2:   While the useFinding 2: While the us
thethe last nine months has nthe last nine months has not, the last nine
normally used for material purchases, not Federal services.

RecommendationRecommendation 2.      FLRA   management   needs   Recommendation   2
contracting in a timely manner.




                       12
